<html>
<title> - BLACK CARBON--A GLOBAL HEALTH PROBLEM WITH LOW-COST SOLUTIONS</title>
<body><pre>[Senate Hearing 113-731]
[From the U.S. Government Publishing Office]



                                                        S. Hrg. 113-731

      BLACK CARBON--A GLOBAL HEALTH PROBLEM WITH LOW-COST SOLUTIONS

=======================================================================

                                HEARING

                               BEFORE THE

                       SUBCOMMITTEE ON CLEAN AIR 
                           AND NUCLEAR SAFETY

                                 of the

                              COMMITTEE ON
                      ENVIRONMENT AND PUBLIC WORKS
                          UNITED STATES SENATE

                    ONE HUNDRED THIRTEENTH CONGRESS

                             FIRST SESSION

                               __________

                           SEPTEMBER 24, 2013

                               __________

  Printed for the use of the Committee on Environment and Public Works


              [GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]


       Available via the World Wide Web: http://www.gpo.gov/fdsys

                               __________

                  U.S. GOVERNMENT PUBLISHING OFFICE

96-022 PDF                WASHINGTON : 2015
_______________________________________________________________________________________

    For sale by the Superintendent of Documents, U.S. Government Publishing Office
Internet: http://bookstore.gpo.gov Phone toll free (866)512-1800; DC area (202)512-1800
         Fax: (202) 512-2104 Mail: Stop IDCC, Washington, DC 20402-0001  





               COMMITTEE ON ENVIRONMENT AND PUBLIC WORKS

                    ONE HUNDRED THIRTEENTH CONGRESS
                             FIRST SESSION

                  BARBARA BOXER, California, Chairman
MAX BAUCUS, Montana                  DAVID VITTER, Louisiana
THOMAS R. CARPER, Delaware           JAMES M. INHOFE, Oklahoma
BENJAMIN L. CARDIN, Maryland         JOHN BARRASSO, Wyoming
BERNARD SANDERS, Vermont             JEFF SESSIONS, Alabama
SHELDON WHITEHOUSE, Rhode Island     MIKE CRAPO, Idaho
TOM UDALL, New Mexico                ROGER WICKER, Mississippi
JEFF MERKLEY, Oregon                 JOHN BOOZMAN, Arkansas
KIRSTEN GILLIBRAND, New York         DEB FISCHER, Nebraska
MAZIE K. HIRONO, Hawaii

                Bettina Poirier, Majority Staff Director
                  Zak Baig, Republican Staff Director
                              ----------                              

              Subcommittee on Clean Air and Nuclear Safety

                  THOMAS R. CARPER, Delaware, Chairman
MAX BAUCUS, Montana                  JEFF SESSIONS, Alabama
BENJAMIN L. CARDIN, Maryland         JOHN BARRASSO, Wyoming
BERNARD SANDERS, Vermont             MIKE CRAPO, Idaho
SHELDON WHITEHOUSE, Rhode Island     ROGER WICKER, Mississippi
TOM UDALL, New Mexico                JOHN BOOZMAN, Arkansas
BARBARA BOXER, California (ex        DAVID VITTER, Louisiana (ex 
    officio)                             officio)
    
    
                            C O N T E N T S

                              ----------                              
                                                                   Page

                           SEPTEMBER 24, 2013
                           OPENING STATEMENTS

Carper, Hon. Thomas R., U.S. Senator from the State of Delaware..     1
Inhofe, Hon. James M., U.S. Senator from the State of Oklahoma...     5
Sessions, Hon. Jeff, U.S. Senator from the State of Alabama......     8
Boozman, Hon. John, U.S. Senator from the State of Arkansas......     9
Whitehouse, Hon. Sheldon, U.S. Senator from the State of Rhode 
  Island.........................................................    10

                               WITNESSES

Schneider, Conrad G., Advocacy Director, Clean Air Task Force....    13
    Prepared statement...........................................    16
Johnson, Timothy V., Director of Emerging Technologies and 
  Regulations, Corning Environmental Technologies, Corning, Inc..    37
    Prepared statement...........................................    39
Schaeffer, Allen, Executive Director, Diesel Technology Forum....    41
    Prepared statement...........................................    44
Singletary, Robert, Attorney, Office of the General Counsel, 
  Oklahoma Department of Environmental Quality...................    53
    Prepared statement...........................................    55
Harris, Robert C., Jr., Vice President, Environmental and Program 
  Management, Alabama State Port Authority.......................    58
    Prepared statement...........................................    60



 
     BLACK CARBON--A GLOBAL HEALTH PROBLEM WITH LOW-COST SOLUTIONS

                              ----------                              


                      TUESDAY, SEPTEMBER 24, 2013

                               U.S. Senate,
         Committee on Environment and Public Works,
              Subcommittee on Clean Air and Nuclear Safety,
                                                    Washington, DC.
    The Subcommittee met, pursuant to notice, at 10:30 a.m. in 
room 406, Dirksen Senate Building, Hon. Thomas R. Carper 
(chairman of the Subcommittee) presiding.
    Present: Senators Carper, Whitehouse, Inhofe, Sessions, and 
Boozman.

          OPENING STATEMENT OF HON. THOMAS R. CARPER, 
            U.S. SENATOR FROM THE STATE OF DELAWARE

    Senator Carper. Good morning. The Committee will come to 
order, I think it already is in order. We are happy that you 
all are here on this beautiful, beautiful September morning.
    I am happy to be here with Senator Sessions and Senator 
Inhofe. Especially I want to acknowledge Senator Inhofe. I have 
been privileged to work with him on these issues and I think we 
are making good progress. We made good progress with the 
leadership of George Voinovich in previous Congresses. I saw 
him about 2 weeks ago and he was anxious to know that the work 
he pioneered is working and that we are continuing it. I think 
he could feel good about it. I know I do and I hope my 
colleagues do as well. Thank you.
    Today's Subcommittee hearing will review the health impacts 
of black carbon and review cost effective technologies, 
strategies and Federal programs with the highest potential to 
reduce black carbon emissions. Senators will have 5 minutes for 
their opening statements.
    We will then recognize our panel of witnesses. Each witness 
will have about 5 minutes for their opening statement. If you 
go way over that, we will rein you in. If you don't, we will be 
OK.
    Following the panel's statements, we will have two rounds 
of questions. And I think we may have a vote around 11:45; we 
will see how that works.
    My colleagues and I were sent to Washington to govern and 
to find commonsense solutions to the challenges that face our 
Nation. I don't believe that Americans are especially 
interested in Democratic ideas or Republican ideas. They are 
interested in good ideas, and they are interested in ideas that 
will work and that we can agree on to make our country better 
and our air cleaner.
    Cleaning up black carbon and dirty diesel emissions 
provides us with an opportunity to work across the aisle, 
something that the three of us are pretty good at doing, but 
not all of us are as often as we should be.
    For folks that don't know, black carbon emissions, 
sometimes called soot, are the dark particles emitted when 
fossil fuels, when biomass and biofuels are burned. Black 
carbon particles make up a large part of the Nation's fine 
particulate matter, pollution. Once in the air, these black 
carbon particles absorb heat from the sun, causing a warming 
effect to the atmosphere, and can speed up the melting process 
for lands on snow or ice.
    Black carbon can also cause serious health impacts. These 
particles are pretty small, they get lodged deep in our lungs 
and cause respiratory illnesses, including bronchitis, asthma, 
lung cancer and even premature death. Indoor and outdoor 
emissions of black carbon are estimated to cause millions and 
millions of premature deaths worldwide each year. Many of these 
deaths occur overseas in developing countries.
    There is still much we don't know about the health impacts 
of black carbon. That is why in 2009, Senator Inhofe and I 
asked the EPA to study black carbon and report back to 
Congress. We received that report about 3 years later, in 2012. 
Since then, the international scientific community has been 
very focused on this issue.
    I look forward to today's testimony, we look forward to 
today's testimony, to hear an update on the health and climate 
impacts of black carbon. Although we are still learning about 
the full extent of black carbon's impact on our health and on 
climate change, we do know what it takes to reduce harmful 
emissions. And we have technology, technology that, as our 
witnesses know, especially one of you, technology that is 
designed and made in America, to reduce these emissions.
    Over half of our country's black carbon emissions and a 
large part of global emissions come from older, dirty, diesel 
engines, the kinds of engines that we find in school buses and 
bulldozers and large vehicles and trains and boats and in 
trucks. As we will hear from our witnesses today, we have clean 
diesel engines made in America today that are reaching near 
zero emissions. Isn't that a great success story? And while 
that is wonderful news, it was nothing to address the pollution 
coming from millions of engines already in use, likely to be 
operating and polluting for the next 20 years. What do they say 
about diesel engines? The good news is they last a long time. 
And the bad news is that they last a long time.
    Despite new engine standards, the EPA estimates that there 
are some 11 million old diesel engines in America lacking the 
latest pollution control technology. In 2005, our friend, the 
former Senator, Governor George Voinovich, came to meet a 
number of us with an idea to address the dirty diesel engine 
backlog, which soon was signed into law as the Diesel Emissions 
Reduction Act, affectionately known as DERA. Through DERA, the 
EPA provided voluntary incentives to diesel engine owners to 
retrofit or replace their vehicles early. DERA turned out to be 
a great idea, not just a great idea but actually great policy, 
averaging more than $13 in health benefits for every $1 in 
funding.
    Since it was enacted, DERA has helped replace or retrofit 
thousands of old school buses, 2,000 school buses in 
Mississippi alone. Since up to 90 kids can ride on an average 
school bus, that is up to 180,000 kids in Mississippi that are 
breathing better on their way to school because of this law. By 
cleaning up our school buses, DERA reduces our black carbon 
emissions and employs thousands of workers who manufacture, who 
sell or repair diesel vehicles and install the components in 
each State. It is a true win-win situation.
    In 2012, we reauthorized the DERA program through 2016, and 
made some changes to try to improve DERA's effectiveness. 
Unfortunately, every year our President's budget has decreased 
funding for the DERA funding. I appreciate the dedication to 
reducing the Federal deficit, but some investments are actually 
worth paying for, especially when they have a 13 to 1 payoff. 
Even during these challenging times, that is not a bad payoff 
or a bad return on investment.
    Cutting such a successful program is, I think penny-wise 
but pound foolish, which is why I am going to work with my 
colleagues here and across the Committee to restore funding for 
this effective law.
    Although DERA is a great success, more can be done to 
reduce our black carbon diesel emissions. For example, the 
bulldozers, diggers, backhoes that build the Nation's 
infrastructure, transportation infrastructure especially, 
produce some 25 percent of America's mobile diesel emissions, 
25 percent. But because of who owns these construction vehicles 
and how they are used, DERA has not been as effective at 
reducing emissions for much of the Nation's construction 
equipment.
    To better address this problem, last Congress I introduced 
the Clean Construction Act of 2011. Its commonsense approaches 
are simple. In the areas of poor air quality, Federal 
transportation projects should reduce, not increase, deathly 
diesel emissions. Major provisions of this legislation made it 
into the Senate-passed Transportation Reauthorization bill. I 
want to thank some of my colleagues who helped make that 
happen. Unfortunately, nearly all the language was subsequently 
removed during conference with the House.
    As we look to a new transportation bill, and we are always 
looking to a new transportation bill, it seems, I will continue 
my efforts, we will continue our efforts on that.
    In closing, we look forward to today's testimony and we are 
looking forward to learning more about the health impacts of 
carbon and what more we could do, can do, and smarter ways to 
reduce emissions. I believe if we continue to work together on 
this issue, and I am encouraged that we will, we can build on 
the progress we have already made and use our resources wisely 
to reduce black carbon emissions at home and abroad.
    With that, I am delighted to turn it over to our ranking 
member, Senator Jeff Sessions.
    [The prepared statement of Senator Carper follows:]

                  Statement of Hon. Thomas R. Carper, 
                U.S. Senator from the State of Delaware

    My colleagues and I were sent to Washington to govern and 
to find common-sense solutions to the challenges facing our 
Nation. I don't believe Americans are especially interested in 
Democratic ideas or Republican ideas. They want us to come up 
with ideas that will work and we can all agree on to make our 
country even better.
    Cleaning up black carbon and dirty diesel emissions 
provides us an opportunity to work across the aisle, something 
we do too rarely these days.
    For folks that don't know, black carbon emissions--
sometimes called soot--are the dark particles emitted when 
fossil fuels, biomass and biofuels are burned. Black carbon 
particles make up a large part of our Nation's fine particulate 
matter pollution.
    Once in the air, these black carbon particles absorb heat 
from the sun--causing a warming effect in the atmosphere and 
can speed up the melting process if it lands on snow or ice.
    Black carbon can also cause serious health impacts. These 
particles can get lodged deep in the lungs and cause 
respiratory illnesses such as bronchitis, asthma, lung cancer, 
and premature death. Indoor and outdoor emissions of black 
carbon are estimated to have caused millions of premature 
deaths worldwide each year--many of these deaths occur overseas 
in developing countries.
    There is still much we don't know about the health impacts 
of black carbon. That is why in 2009, Senator Inhofe and I 
asked the EPA to study black carbon and report back to 
Congress.
    We received EPA's report in 2012--and since then the 
international scientific community has been very focused on 
this issue. I look forward to today's testimony to hear an 
update on the health and climate impacts of black carbon.
    Although we are still learning about the full extent of 
black carbon's impact on public health and climate change, we 
do know what it takes to reduce harmful emissions. And we have 
technology that's designed and made in America to reduce these 
emissions.
    Over half of our country's black carbon emissions and a 
large part of global emissions come from old, dirty diesel 
engines. The kinds of engines you'd find in school buses, 
bulldozers and other large vehicles.
    As we will hear from our witnesses, clean diesel engines 
made in America today are reaching near zero emissions. While 
that is great news, it does nothing to address the pollution 
coming from the millions of engines already in use that will 
likely be operating--and polluting--for the next 20 years.
    Despite new engine standards, the EPA estimates there are 
11 million old diesel engines in America lacking the latest 
pollution control technology. In 2005, our friend former 
Senator George Voinovich came to me with an idea to address the 
dirty diesel engine backlog--which soon was signed into law as 
the Diesel Emissions Reduction Act (DERA). Through DERA, the 
EPA provides voluntary incentives to diesel engine owners to 
retrofit or replace their vehicle early.
    DERA turned out to be a great idea--averaging more than $13 
in health benefits for every $1 in funding. Since it was 
enacted, DERA has helped replace or retrofit thousands of old 
school buses--2,000 school buses in Mississippi alone. Since up 
to 90 kids can ride on an average school bus, that's up to 
180,000 kids in Mississippi that are breathing better on their 
way to school because of this law.
    By cleaning up our school buses and ports, DERA reduces our 
Nation's black carbon emissions and employs thousands of 
workers who manufacture, sell or repair diesel vehicles and 
their components in each State. It is a true win-win.
    In 2010, we reauthorized the DERA program through 2016 and 
made some changes to try to improve DERA's effectiveness. 
Unfortunately, every year the President's budget had decreased 
funding for the DERA program.
    I appreciate dedication to reducing the Federal deficit, 
but some investments are worth paying for, even during these 
challenging financial times. Cutting such a successful program 
is penny wise and pound foolish, which is why I will work with 
my colleagues to restore funding for this effective law.
    Although DERA is a great success, more can be done to 
reduce our black carbon diesel emissions. For example, the 
bulldozers, diggers, and backhoes that build our Nation's 
infrastructure produce 25 percent of America's mobile diesel 
emissions. But because of who owns these construction vehicles 
and how they are used, DERA has not been as effective at 
reducing emissions from our Nation's construction equipment.
    To better address this problem, last Congress I introduced 
the Clean Construction Act of 2011. This common-sense approach 
is simple: in areas of poor air quality, Federal transportation 
projects should reduce, not increase, deadly diesel emissions. 
Major provisions of this legislation made it into the Senate-
passed transportation reauthorization bill. Unfortunately, 
nearly all the language was subsequently removed during 
conference with the House. As we look to a new transportation 
bill, I will continue my efforts on this front.
    In closing, I look forward to today's testimony to learn 
more about the health impacts of black carbon and what more we 
could do to reduce emissions. I believe if we continue to work 
together on this issue we can build on the progress we have 
already made and use our resources wisely to reduce black 
carbon emissions at home and abroad.

    Senator Sessions. Thank you, Mr. Chairman, for those good 
remarks, and thank you for the kind of leadership you provide 
to us. You set a good example on how the Senate ought to 
operate.
    I thought I would yield to Senator Inhofe. He has been 
active on this issue for a number of years and is our ranking 
member of the full Committee, formerly ranking member of the 
full Committee. Senator Inhofe, I would yield to you.

          OPENING STATEMENT OF HON. JAMES M. INHOFE, 
            U.S. SENATOR FROM THE STATE OF OKLAHOMA

    Senator Inhofe. Thank you, Senator Sessions. I do thank 
you.
    So that you will be aware, the five of you, and that we are 
aware, I am not on this Subcommittee. However, I was chairman 
of this full Committee when the Republicans were in the 
majority, and I am very active on it. This Committee has the 
largest jurisdiction of any committee in the U.S. Senate. It 
covers a lot of things.
    So I think that this issue, you are going to find during 
the course of this, is not really a partisan issue. So this is 
kind of an unusual subject that we are dealing with here.
    I think the chairman has done a good job explaining what 
black carbon is. Everybody knows what that is. I would like to 
say that we have, this has nothing to do with global warming or 
carbon dioxide. I do think it is important for all of us to 
understand that this is something that is very significant in 
the third world countries. I happen to kind of specialize in 
one area of Africa; in fact, I have made 127 African country 
visits. The one thing that is consistent throughout Africa is 
the harmful emissions that stem largely from the indoor use of 
cookstoves filled with tree bark and dung. According to a 
recent study by the Bill and Melinda Gates Foundation, black 
carbon causes 3.5 million deaths annually in these countries, I 
am talking about Africa now, which is more than malaria and 
AIDS combined.
    Now, that is incredible. But that is true. That is what we 
are dealing with here. So it is significant. One of the 
simplest ways we can reduce this type of pollution is to 
increase access to electricity in these poorer regions in the 
world. While many may not realize it, there are significant 
hurdles caused by U.S. policies that make it difficult for U.S. 
companies to invest in and build power plant projects in low-
income areas.
    The Overseas Private Investment Corporation, OPIC, is a 
Government entity that facilitates investment in high-risk 
environments by providing political risk insurance. Many of the 
world's poorest regions are also the most politically volatile. 
So many companies will not invest in these countries unless 
they have insurance that would cover their losses in the event 
the government seized their assets or something similar to 
that, which we know happens quite often in the third world 
countries. OPIC sells insurance to cover this risk.
    Unfortunately, in 2007 a rider was attached to an 
appropriations bill that prohibits OPIC from writing insurance 
on projects that may increase greenhouse gas emissions. This 
language effectively prohibits U.S. involvement in power 
projects that use traditional fuels such as coal, oil and 
natural gas for the misguided goal of combating global warming.
    In reality, the only impact of this language is that it 
levies the cost of global warming regulations on the backs of 
the world's poorest people. If we remove this language and OPIC 
was allowed to offer insurance to these projects, U.S. firms 
would be able to safely, cheaply and effectively generate 
electricity to the poorest areas of the world. This would 
enable these families to affordably use electric power stoves 
which would significantly reduce the risk of black carbon 
filling the homes as families' meals are cooked.
    In short, you almost have to go there and see this, and see 
what they are using today. It is such a no-brainer that we 
ought to help them develop what they can to offset this. Small 
change in U.S. policy that wouldn't cost a dime could 
dramatically reduce the number of deaths caused by black carbon 
pollution worldwide. I am eager to pursue a change in this law, 
so that we can help the most impoverished obtain access to 
cheap power and cleaner electric powered stoves.
    Domestically, the Diesel Emissions Reduction Act program 
has been a big success. It was created in the Energy Policy 
Act. Actually it was in a different committee, but it was at a 
time in 2005 when I chaired this Committee. So we were very 
much involved in it. It provides Federal and State grants to 
manufacturers to rebuild diesel engines or install emissions 
reduction systems to diesel vehicles to comply with State and 
Federal laws.
    In 2010, when I was the ranking member of this Committee, I 
was one of the primary champions of this Diesel Emissions 
Reduction Act, with Chairman Carper and Senator Voinovich, who 
is no longer in the U.S. Senate. Each year, DERA helps clean up 
more than 14,000 diesel-powered vehicles and equipment across 
the country.
    What a lot of people don't know is, and even my colleagues 
here are probably not aware that the majority of school buses 
that are powered by the diesel engines, and then of course the 
old ones that are still there, were manufactured not just in my 
State but in my city of Tulsa, Oklahoma. So we have an 
opportunity to do something about it. Robert, I appreciate very 
much your being here. And I will not be able to be here during 
your testimony but I have read it, and I agree with your 
efforts. We need to have your help along with the other members 
of this panel.
    Thank you, Mr. Chairman.
    [The prepared statement of Senator Inhofe follows:]

                  Statement of Hon. James M. Inhofe, 
                U.S. Senator from the State of Oklahoma

    Thank you, Chairman Carper and Ranking Member Sessions, for 
holding this hearing today. First, I should point out that 
black carbon has nothing to do with global warming or carbon 
dioxide.
    It is, however, an important topic, especially on the 
continent of Africa. What a lot of people don't know is that I 
have traveled to Africa more than any other Senator in the 
history of the United States. I have made 127 individual 
country visits, and the issue of black carbon has come up 
almost everywhere I've been--whether it's Burundi or Zambia.
    Black carbon--the common name for fine particulate matter, 
or soot--is a pollutant that can cause negative health 
effects--and even death--when breathed in high concentrations.
    In lower income countries, like those in Africa, the 
problem is massive compared to the United States. These harmful 
emissions stem largely from the indoor use of cook-stoves 
fueled by tree bark, dung, and other high-pollutant, unhealthy 
materials.
    According to a recent study by the Bill and Melinda Gates 
Foundation, black carbon causes 3.5 million deaths annually in 
these countries--which is more than malaria and AIDS combined.
    One of the simplest ways we can reduce this type of 
pollution is to increase access to electricity in these poor 
regions around the world. And while many may not realize it, 
there are significant hurdles caused by U.S. policies that make 
it difficult for U.S. companies to invest in and build power 
plant projects in low-income countries.
    The Overseas Private Investment Corporation (OPIC) is a 
Government entity that facilitates investment in high-risk 
environments by providing political risk insurance. Many of the 
world's poorest regions are also the most politically volatile, 
so many companies will not invest in these countries unless 
they have insurance that would cover their losses in the event 
the government seized their assets or something similar to 
that. OPIC sells insurance to cover this risk.
    Unfortunately, in 2010, a rider was attached to an 
appropriations bill that prohibits OPIC from writing insurance 
on projects that may increase greenhouse gas emissions. This 
language effectively prohibits U.S. involvement in power 
projects that use traditional fuels such as coal, oil, and 
natural gas for the misguided goal of combating global warming. 
In reality, the only impact of this language is that it levies 
the cost of global warming regulations on the backs of the 
world's poorest people.
    If we removed this language and OPIC was allowed to offer 
insurance to these projects, U.S. firms would be able to 
safely, cheaply, and effectively generate electricity for the 
world's poorest. This would enable these families to affordably 
use electric-powered stoves, which would significantly reduce 
the risk of black carbon filling homes as family meals are 
cooked.
    In short, a small change in U.S. policy--that wouldn't cost 
a dime--could dramatically reduce the number of deaths caused 
by black carbon pollution worldwide, and I am eager to pursue a 
change in this law so that we can help the most impoverished 
obtain access to cheap power and cleaner electric-powered 
stoves.
    Domestically, the Diesel Emissions Reduction Act (DERA) 
program has been a big success. It was created in the Energy 
Policy Act of 2005 and provides Federal and State grants to 
manufacturers to rebuild diesel engines or install emission 
reduction systems to diesel vehicles to comply with State and 
Federal emission requirements.
    In 2010, when I was Ranking Member of this Committee, I was 
one of the primary champions of the DERA Act of 2010 with 
Chairman Carper and Senator Voinovich, which reauthorized the 
program through 2016.
    Each year, DERA helps clean up more than 14,000 diesel-
powered vehicles and equipment across the country, which has 
reduced emissions while employing thousands of workers who 
manufacture, sell, or repair diesel vehicles and their 
components in each State. I am proud to say this bill was 
signed into law on January 4, 2011.
    The voluntary DERA program has been utilized by Oklahoma to 
effectively reduce a real pollution risk in a cost effective 
way. We'll hear the specifics about this from Mr. Singletary, 
but among other things, we've been able to replace dozens of 
old school buses with up-to-date vehicles and install upgraded 
equipment on hundreds of others.
    I want to thank Robert for taking the time to come up and 
discuss how this program has been implemented by our State. He 
works in the Air Quality division of the General Counsel's 
office at the Oklahoma Department of Environmental Quality and 
has been instrumental in ensuring the program's effectiveness. 
Robert, thanks again for being here.

    Senator Carper. Senator Inhofe, thank you. Thanks for 
coming by and joining us and for your steadfast support on this 
front. It is great to work with you.
    Senator Sessions is next, and then Senator Boozman, 
welcome, and Senator Whitehouse, welcome. If you would like to 
make a statement as well, you are welcome to do that.

           OPENING STATEMENT OF HON. JEFF SESSIONS, 
             U.S. SENATOR FROM THE STATE OF ALABAMA

    Senator Sessions. Thank you. Senator Inhofe knows what he 
is talking about when he talks about Africa. We should call him 
the Senate's Ambassador to Africa. No one has been there more, 
and been in some of the most remote areas and met with real 
people. I think that insight into the advantage of electricity 
over burning of waste products is certainly valuable to us all.
    Matter of fact, I have heard it said that the life span of 
people in a country where electricity is readily available is 
twice that where it is not. So there are all sorts of 
advantages for having electricity. In the long run, I think 
even a less than perfect plant would be better than burning 
individual fires in people's homes, wouldn't you agree, Jim?
    Senator Inhofe. I would.
    Senator Sessions. Mr. Chairman, you are a great leader, we 
thank you for that. We just had a big announcement about carbon 
dioxide standards last week. We are on a positive note today, 
this is something we can really agree about. You have been an 
advocate for these reforms for some time.
    Last year, due to the work of Chairmen Carper and Inhofe, 
the EPA issued a 388-page report to Congress on black carbon 
and found that the United States contributes 8 percent of 
global emissions of black carbon. A key source of that in the 
United States is diesel exhaust emissions from large trucks, 
ships, trains, school buses and construction equipment. The 
remaining 92 percent comes from outside the United States. 
Globally, black carbon comes often from pollution in 
underdeveloped nations, as we have discussed.
    Other key findings of the EPA report is that substantial 
progress has been made and is being made in reducing carbon 
emissions from diesel engines. EPA data shows that black carbon 
emissions from mobile sources, vehicles, dropped more than 30 
percent from 1990 to 2005, and that ``continued reductions are 
expected for mobile sources in the next two decades.'' In fact, 
the EPA report says ``total mobile source black carbon 
emissions are projected to decline by 86 percent by 2030 due to 
regulations already promulgated.''
    So we will hear today from Bob Harris, from the Port of 
Mobile, a typical industrial activity active port, on the 
things that they have done and some of the grants that Federal 
money provided helped them make major progress. The Department 
of Energy report in 2009, Light Duty Diesel Vehicles, Market 
Issues and Potential Energy and Emission Impacts, was a report 
I asked for in 2009. I wanted to get a comparison of the 
characteristics of diesel-fueled vehicles with those from the 
hybrid vehicles, E85-fueled vehicles and other normal gasoline 
vehicles.
    The report found ``Diesel vehicles show a fuel economy 
advantage of 20 to 40 percent over gasoline vehicles, depending 
on the size and duty requirements of the vehicles.'' The report 
identified ``several impediments to the market success of 
diesel vehicles in the United States, including more stringent 
Federal and State standards for emissions, cost premiums, they 
cost more for diesel vehicles, limited availability of light 
duty diesel vehicles and higher retail prices for diesel fuel 
than conventional gasoline.'' And we know that Europe uses a 
good bit more of diesel engines in their normal automobile 
fleet.
    Mercedes Benz in Alabama builds the M class and the GL 
class at their Tuscaloosa, Alabama facility. They come with 
this most modern Bluetec diesel engine. Their fuel economy for 
the E250 Bluetec engine is 45 miles per gallon on the highways. 
And the 250 Bluetec has a 33 percent advantage in the city and 
combined EPA fuel economy over the gasoline counterpart, and a 
50 percent advantage in highway fuel economy. They tell me that 
the payback for the engine is immediate and it has a higher 
resale value.
    So there are a number of programs that we have. GAO has 
issued a report saying that there are 14 programs that provide 
grant or loan funding to reduce mobile source diesel emissions, 
disbursing $1.4 billion from fiscal years 2007 to 2011. Perhaps 
we could combine some of those, create some efficiencies and it 
would probably be appropriate for us, Mr. Chairman, as you 
noted, to evaluate how we can make this program work even 
better.
    Thank you.
    Senator Carper. Thank you very, very much, Senator 
Sessions. Thanks for letting me be your wingman here.
    Senator Boozman, if you would like to make your comments 
now, please proceed.

            OPENING STATEMENT OF HON. JOHN BOOZMAN, 
            U.S. SENATOR FROM THE STATE OF ARKANSAS

    Senator Boozman. Yes, thank you, Chairman Carper and 
Ranking Member Sessions. Again, I appreciate you for holding 
today's Subcommittee hearing.
    I have been glad to work with you to reduce harmful 
emissions and make our air cleaner. Senator Carper, Senator 
Inhofe, Senator Sessions and others have been true leaders, for 
example, in the Diesel Emissions Reduction Act.
    Diesel engines are vital to our economy. We know that older 
diesel engines contribute about 50 percent of our Nation's 
black carbon emissions. The Diesel Emissions Reduction Act, or 
DERA, has received very broad bipartisan support, and I was 
pleased to be the lead Republican on efforts to secure adequate 
funding during the 112th Congress. I now work on this issue as 
a member of the Appropriations Committee. DERA supports funding 
for retrofits of diesel engines, reducing harmful emissions by 
as much as 90 percent.
    Clean air is not a partisan issue on Capitol Hill. 
Unfortunately, we have seen this Administration's proposed to 
slash funding for this funding by 70 percent, while continuing 
to waste money on far less effective environmental initiatives. 
For example, they continue to aggressively pursue the 
greenhouse gas emissions standards that will cost American jobs 
without having any significant impact on the climate.
    On the other hand, with DERA and similar efforts, we work 
together to protect our air and resources. This type of 
conservation and protection will continue to receive broad 
bipartisan support on Capitol Hill, because we see clear, 
science-based evidence that the policy will address a 
legitimate problem and have a substantial impact.
    Again, I appreciate the hearing today, and I appreciate 
working with you, Mr. Chairman, and the ranking member, and I 
look forward to hearing the testimony of our witnesses. Thank 
you all for being here.
    Senator Carper. Let me just say we very much welcome your 
statement, we welcome your participation. This is a great 
bipartisan issue and if we work together it is amazing what we 
will get done.
    Senator Boozman. I agree.
    Senator Carper. Thank you, sir.
    Senator Whitehouse, good morning.

         OPENING STATEMENT OF HON. SHELDON WHITEHOUSE, 
          U.S. SENATOR FROM THE STATE OF RHODE ISLAND

    Senator Whitehouse. Thank you, Senator Carper and Senator 
Sessions, for hosting this hearing and for the terrific way 
that you are working together on this issue.
    We are all very aware of the health effects of black carbon 
through asthma and bronchitis and lung cancer. It is also a 
potent climate pollutant, running hundreds of times more 
dangerous or more impactful on global warming than carbon 
dioxide. Thankfully it is not up there for as long. But while 
it is, it does a lot of global warming damage. Then of course 
it falls, and when it lands on snow and ice, it reduces the 
albedo, the shininess, so it absorbs more heat and there is 
more melt, and on you go.
    So it has both health and climate effects. I think this is 
an area where we cannot only work together as a Nation, but 
also work internationally. I traveled with Senator McCain to 
China over the August recess. It looked like we landed at dusk. 
There was a big time change, so I wasn't really exactly sure 
what time it was. It wasn't dusk, it was mid-afternoon. It just 
looked like dusk because the pollution was so bad over Beijing. 
It has gotten to the point where the Chinese government is 
getting a bit anxious about popular unrest on this subject. So 
they are really serious about cleaning this up, and black 
carbon is a good place to work together internationally as 
well.
    I would like to ask your consent, everybody's consent, if I 
could enter an article from MIT Technology Review into the 
record, and just close by observing that this is solvable 
problem. Solving it will benefit American manufacturing and 
protect public health and move us forward on climate change.

    [The referenced information follows:]


    [GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]
    
    Senator Whitehouse. So again, my thanks for the wonderful 
way the two of you are working together.
    Senator Carper. Thanks very much, without objection, we 
will be happy to do that. That is a publication that comes to 
our house every month. My wife says, why do they send us this? 
I said, we had a son that went to school there. And I said, 
Martha, we have paid for this subscription more times than you 
can count.
    [Laughter.]
    Senator Carper. All right. One of our colleagues who is not 
with us today, he would like to talk about the 80-20 rule and 
explain how he had great success for many years when Ted 
Kennedy was with us. Our colleague is a very conservative 
Republican from out west and was able to work with a pretty 
liberal Democrat. I said, what is the key to your success? He 
always said, it is the 80-20 rule. And I said, what is that? He 
said, Senator Kennedy and I agree on 80 percent of the stuff, 
we disagree on the other 20 percent of what we try to do is 
focus on the 80 percent where we agree, to see what we can get 
done. This s just a great example of the 80-20 rule.
    And my staff reminded me, and I want to thank our staffs, 
Democrat and Republican staff, reminded me that for every $3 
that we invest in DERA, in those funds, for every dollar, 
excuse me, that we invest in DERA, we get a $3 leverage from 
State funds, local funds, private funds. So it is a great way 
to leverage additional moneys on a three to one basis.
    The last thing I would say before we recognize our panel, 
is a question that I ask of all of us from time to time, is it 
possible to clean our environment, clean our air and create 
jobs at the same time. And we will hear from Mr. Johnson and 
probably others on this panel, we will probably get the answer, 
and the answer is very encouraging: yes.
    So our panel today, Conrad Schneider, very nice to see you 
again. Welcome, thanks for joining us. You are the Advocacy 
Director at the Clean Air Task Force. Thank you very much.
    Next is Timothy V. Johnson, Tim Johnson. Tim Johnson is a 
popular name here, you know, with one of our colleagues from 
South Dakota. This Tim Johnson, though, is the Director of 
Emerging Technologies and Regulations at the Corning 
Environmental Technologies, Corning, Inc.
    Next we have Mr. Allen Schaeffer. Mr. Schaeffer, nice to 
see you. He serves as the Executive Director of the Diesel 
Technology Forum. Thanks so much.
    And next Bob Singletary, an attorney at the Oklahoma 
Department of Environmental Quality.
    And finally, Robert C. Harris, Jr. He is the Vice President 
of Environmental and Program Management at the Alabama State 
Port Authority. It is great to see you.
    I would ask you to keep your statements to about 5 minutes. 
If you go way over that, we will rein you back. Otherwise, you 
will be good to go. So thank you all for joining us. Your whole 
statements will be made part of the record, and we look forward 
to hearing from you and having a good conservation.
    Mr. Conrad Schneider.

STATEMENT OF CONRAD G. SCHNEIDER, ADVOCACY DIRECTOR, CLEAN AIR 
                           TASK FORCE

    Mr. Schneider. Thank you, Senator Carper, Ranking Member 
Sessions and other members of the Subcommittee. Good morning.
    My name is Conrad Schneider, Advocacy Director of the Clean 
Air Task Force. I very much appreciate the opportunity to speak 
to you today. We are an advocacy group really focused on clean 
air and climate issues.
    I would like to talk about the public health and 
environmental threats posed by black carbon emissions and two 
cost-effective ways that the Federal Government can reduce 
them. First, fully fund the Diesel Emission Reduction Act, 
DERA. And second, enact Senator Carper's Clean Construction Act 
as part of the next Transportation Reauthorization Bill.
    DERA, as we have heard, is a highly successful program and 
enjoys broad bipartisan support. Clean Construction, which has 
been endorsed in principle by my organization and the 
Associated General Contractors, provides a unique opportunity 
to integrate and streamline clean air measures into project 
delivery while providing support for contractors to clean up 
dirty equipment and protect public health.
    Diesel engines are known for their durability. But older 
engines emit a toxic mixture of tiny black carbon soot 
particles and gases from the burning of diesel fuel and 
lubricating oil that go from the end of the tailpipe directly 
to your lungs. At highest risks are commuters and people living 
or working in proximity to truck traffic, construction or other 
heavy equipment.
    Nationally, diesel exhaust poses a cancer risk that is 
three times higher than the risk from all other air toxics 
tracked by EPA combined. Premature death, lung cancer, heart 
attack and stroke have all been tied to diesel pollution. 
Estimates show that for every dollar spent on reducing black 
carbon and the other components of diesel exhaust, $13 would be 
avoided in health damages.
    Moreover, black carbon is a potent global warming agent. It 
warms the atmosphere by absorbing sunlight and radiating heat 
into the air, much like an asphalt parking lot on a summer day. 
Black carbon can darken snow and ice directly, accelerating 
melting. It is about 2,000 times more potent than the 
equivalent amount of carbon dioxide over a 20-year period, and 
the United States has the highest per capita emissions in the 
world for black carbon, 57 percent of which comes from diesels.
    Retrofitting these engines with filters and/or accelerating 
the turnover to new cleaner engines equipped with filters 
offers one of the few actions that will have immediate climate 
benefits, complementing long-term efforts to reduce 
CO<INF>2</INF> emissions. In fact, diesel particulate filters 
are the only emission control technology that can virtually 
eliminate black carbon particles from diesel exhaust, with over 
a 90 percent effectiveness.
    While EPA has mandated tighter emissions rules on new 
diesel engines, most of the 11 million heavy duty engines in 
use today lack these filters. Unfortunately, the rate of fleet 
turnover to new, cleaner engines slowed during the recession. 
And more dirty diesels are likely to be with us even longer 
than we expected. More years and more miles by older engines 
means more pollution. So we need to address the pollution from 
the existing fleet. In 2005, Congress and the Administration 
enacted DERA, a federally sponsored voluntary grant and loan 
program to do just that.
    Since its inception, EPA estimates that DERA has cleaned up 
more than 50,000 diesel vehicles, resulting in the reduction of 
thousands of tons of fine particles, and created over 10,000 
jobs. The program was originally authorized at $200 million per 
year for 5 years and since that time, over $500 million has 
been appropriated, $300 million through the American Recovery 
and Reinvestment Act.
    Throughout the program's history, DERA has enjoyed strong 
bipartisan support, most recently demonstrated by its 
reauthorization for another 5 years in 2010. It was 
reauthorized at a smaller amount, $100 million and funded in 
fiscal years 2009 and 2010 at $60 million. But the funding has 
declined every year since, due to the current budgetary 
situation. The current House and Senate Interior Appropriations 
bills include less than $20 million for this program.
    We are missing an enormous opportunity for improving public 
health and the environment by failing to fully fund it. It is 
backed by a uniquely broad coalition of States and localities, 
environmental, health, user and industry groups that all 
support funding because of its sound environmental health and 
budgetary policy. As Senator Carper said, it is a win-win-win.
    We wrote earlier this year asking that Congress fund DERA 
at not less than $20 million. It is our hope that Congress will 
continue to provide leadership on this issue. We urge you to do 
so.
    One sector that has been underserved by DERA and other 
existing programs is construction. Construction contractors are 
not always well positioned to take advantage of these programs, 
which have required a competitive grant application process. 
There is a better way: clean construction as a part of project 
delivery in the Transportation bill. Modern pollution control 
equipment is being used across the country in building 
projects, originating in the Big Dig and in the Lower Manhattan 
reconstruction after 9/11, and construction clean contract 
specifications have been adopted by New York, New York City, 
Illinois, Rhode Island and most recently by the city of Chicago 
and in New Jersey.
    Taking the lead from these States and working with 
contractors and the environmental community, you, Senator 
Carper, crafted the Clean Construction Act of 2011. Provisions 
included in the Senate version of last year's MAP-21 bill, but 
unfortunately did not survive in the conference committee and 
were not included in the final bill as enacted. This is 
regrettable. This type of program, if included as part of the 
reauthorization when MAP-21 expires next year, would reduce the 
amount of harmful black carbon emissions emitted by older 
construction equipment, working on federally funded 
transportation projects.
    Your approach would accomplish this by ensuring that diesel 
construction equipment employs modern engine and pollution 
reduction technology through a requirement in funding, and it 
is capped at 1 percent of project cost. In MAP-21, we estimated 
that this would generate $200 million per year to clean up this 
construction equipment, and we estimated that the bill would 
eliminate 9,000 tons of black carbon soot, and avoid nearly 
1,000 premature deaths each year.
    Thank you for the opportunity to testify in support of 
these two important opportunities to reduce black carbon 
emissions.
    
    
    [The prepared statement of Mr. Schneider follows:]
   
   
[GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]
    
   
    
    Senator Carper. Thank you so much. Thank you for your 
testimony and for your leadership for eons on these important 
issues.
    Mr. Johnson, welcome.

     STATEMENT OF TIMOTHY V. JOHNSON, DIRECTOR OF EMERGING 
      TECHNOLOGIES AND REGULATIONS, CORNING ENVIRONMENTAL 
                  TECHNOLOGIES, CORNING, INC.

    Mr. Johnson. Thank you, Mr. Chairman and Mr. Sessions, 
members of the Senate Environment and Public Works Committee, 
and also the staffers. We realize the key role that you play 
here as well.
    Senator Carper. We realize that, too.
    [Laughter.]
    Mr. Johnson. I work for Corning, Incorporated. I am a 
technology scout for the company. It is an honor and pleasure 
to help you understand the issues around diesel emissions and 
how remediation is a winning proposition for all stakeholders, 
and I mean all the stakeholders.
    Corning, Incorporated is one of the oldest companies in the 
world. We date back to 1850. We invest very heavily in R&D, and 
as a result of that, we have obtained, or were awarded, four 
Presidential National Medal of Technology Awards, four, in 
addition to the Malcolm Baldrige Quality Award and many other 
awards recognizing our relationships with our employees and our 
community.
    I am a recognized expert in diesel emissions and vehicle 
emissions in general, and keep a keen eye on future 
developments and openly share my knowledge with industry and 
government, so we can work together to reduce the harmful 
environmental impact of vehicles.
    My colleague just gave a great overview, and he provided 
you with a very thorough fact-based assessment in the written 
testimony. So I won't spend a lot of time on that.
    I do have some facts here that you might find surprising. 
Diesel exhaust is all around us, and is quite toxic. Untreated 
diesel engines will emit about 10 million to 100 million 
particles per milliliter. That is the volume in the curved part 
of my little finger, 100 million particles in that little 
volume. And each one carries toxic polyaromatic hydrocarbons 
and other toxic agents deep into your lungs. It is no wonder 
that the World Health Organization has labeled it as a 
carcinogen. That is their highest designation and it warrants 
action.
    There are other organizations as well, as reputable, that 
have declared it as toxins.
    This is quite urgent, because we are all exposed. When you 
drive on the freeway, the air entering your cabin in your car 
has five times the toxic components of background air. When you 
take a breath on the order of 1 million to 10 million particles 
enter your lungs. One breath, 1 million to 10 million. Seventy 
percent of those are retained.
    Effective and inexpensive technologies are available to 
clean this up. In 2007, the USEPA set limits on diesel 
pollution for new trucks and engines that resulted in the use 
of a diesel particulate filter, which my company makes. These 
amazing devices remove more than 99 percent of these fine 
particles from the exhaust. In fact, they are so effective that 
they act like a huge vacuum cleaner. The air going into the 
engine has higher concentrations of fine particulates than the 
gas coming out of the tailpipe.
    The more you drive these engines with diesel filters, the 
cleaner the air gets. Even in pristine Corning, New York, we 
have a lot of cows there. And this cleans the environment even 
better.
    The technology is a major cornerstone of the emissions 
control industry, and generates high quality jobs. According to 
the manufacturers of the Emission Controls Association, in 
2012, $12 billion of economic activity and 65,000 high-paying 
U.S. jobs were generated in the vehicular emission control 
industry, and more than $2 billion of this was from diesel 
truck controls.
    We just announced a new plant in Corning, New York, $245 
million investment, 250 employees and a huge cornerstone, 
again, to the region of western New York. The plant is intended 
to build components that will be exported to China, if you can 
believe that. So it is a significant environmental impact.
    DERA, of course, is central to this. Mr. Schneider gave all 
that justification. Remember, 13 to 1 dollar benefit cost 
ratio. It is unbelievable.
    And one last thing, as Steve Jobs would so effectively say 
when describing the coolest part of a new product, the filters 
take out more than 90 percent of the carbon black. This is a 
proven global warming agent, thousands of times more potent on 
a pound for pound basis than CO<INF>2</INF>. And about 30 
percent of the carbon footprint of trucks. So this is a major 
side benefit that we cannot discount.
    I thank you very much for your attention.
    [The prepared statement of Mr. Johnson follows:]
    

[GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]


    
    Senator Carper. Thank you for great products and for a 
terrific testimony.
    Mr. Schaeffer.

   STATEMENT OF ALLEN SCHAEFFER, EXECUTIVE DIRECTOR, DIESEL 
                        TECHNOLOGY FORUM

    Mr. Schaeffer. Good morning, Senator Carper, Senator 
Sessions and Senator Boozman. Thank you very much for the 
opportunity to be here.
    The Diesel Technology Forum is a not for profit educational 
group that represents the Nation's leading diesel engine 
vehicle and equipment manufacturers, fuel refiners and 
emissions control technology companies as well as allied 
organizations. We have submitted a detailed written statement 
for the record today.
    I would like to address four points in my oral statement, 
however. First is to highlight the importance of diesel power 
to the U.S. economy. Diesel engines are a significant part of 
the U.S. economy, contributing about $480 billion annually, and 
are a dominant feature of 16 key sectors of the economy, from 
agriculture to wholesale trade.
    Diesel engine fuels and technology manufacturing is a job 
engine in every State, and accounts for about one and a quarter 
million jobs, engineering, manufacturing and servicing in every 
State in America. And the technology is not only important to 
the U.S. economy, but I would also like to highlight its role 
in the black carbon inventory. While about half of the U.S. 
economy depends in some way on diesel technology, diesel 
engines play a declining role in the emissions of black carbon. 
According to the 2012 EPA black carbon report to Congress, the 
U.S. accounts for about 8 percent of global black carbon 
emissions. Of that, 52 percent comes from mobile sources, and 
93 percent of that is attributed to diesel engines. Senator 
Carper, as you stated in your opening remarks, the EPA projects 
this to decline by 86 percent by 2030, largely due to controls 
on new engines. In fact, the California Resources Board 
similarly concludes that by 2014, in 14 short months from 
today, diesel emissions will make up just 9 percent of all soot 
in California.
    The second point I would like to make is that these major 
reductions in black carbon emissions are a result of the new 
generation of clean diesel technology that offers significant 
fuel savings and emissions reductions and is widely accepted. 
That is where the largest clean air and climate benefits are 
being delivered.
    The diesel industry has been on a journey of continuous 
improvement to reduce emissions to near zero levels. Thanks to 
billions of dollars in investments and the innovation of diesel 
engine manufacturers and suppliers, we fundamentally 
transformed diesel engines to a near zero emissions technology. 
And clean diesel, as we refer to it, is clean engines, advanced 
fuels and emissions control technologies.
    Exhibit 1 to my right outlines that journey for heavy duty 
on-road commercial trucks and buses, showing particulate 
matter, of which black carbon is a component and oxides of 
nitrogen have decreased by 98 percent relative to an engine 
manufactured in 1988.
    As depicted in the next exhibit, not only are these new 
engines near zero emissions but they are also gaining 
acceptance in the trucking industry and delivering tangible 
clean air benefits today. Based on our research, almost one in 
three heavy duty trucks on the road today is now of 2007 or 
newer vintage of clean diesel standards. These engines are 
found in delivery trucks, buses, fire trucks, short haul and 
long haul truck and tractor combinations in communities all 
across America. Their use has already contributed to a 
reduction of 27,000 tons of particulate matter and almost 1 
million tons of nitrogen oxide emissions. While preserving this 
impressive clean air performance, truck and engine 
manufacturers are now embarking on another journey, one 
requiring more investment and innovation to meet requirements 
to reduce CO<INF>2</INF> emissions and improve fuel economy by 
somewhere between 6 and 23 percent over the next 6 to 8 years, 
in compliance with new EPA and NHTSA regulations.
    This journey to clean diesel technology is not limited to 
heavy duty on-road commercial trucks, but has been underway 
across the board for all diesel engines and applications. As 
shown in the next exhibit, you can see that diesel engines, 
which make up two-thirds of all farm and construction 
equipment, are now in the final phase of their journey for 
meeting some of the near zero standards for some of the largest 
earth moving and marine workload kinds of engines. These so-
called Tier 4 standards have already been met with the smaller 
and higher volume off-road engines and equipment.
    The third point I would like to make today is on the matter 
of existing engines, and there are effective technical 
strategies to reduce those emissions from existing engines. And 
there is a continued need for the government incentive programs 
to encourage their adoptions.
    Senator Carper, you have been a leader in the forefront of 
this battle since 2005, and we thank you for that. Under your 
leadership, we have made two great accomplishments, in the 
funding of the program and its performance.
    According to the EPA's second report to Congress, between 
2008 and 2010, the program retrofitted, repowered or replaced 
over 52,000 older engines found in a wide variety of 
applications, resulting in about 12,000 tons of PM emission 
reductions and 200,000 tons of NO<INF>x</INF> reduced at the 
same time.
    Let me emphasize, we believe there is still plenty of work 
to do that will allow more need for these programs. Further EPA 
action to reduce levels of allowable emissions of ozone and 
meeting new particulate standards will make the need even 
greater. DERA has provided important Federal funds in a very 
competitive process that other programs should aspire to, and 
has been able to leverage those dollars, leverage roughly $3 in 
non-Federal funding for every $1 in Federal funding to make 
these air quality benefits.
    The other provisions that we looked for help in reducing 
emissions include the Congestion Mitigation Air Quality 
Improvement Program of the MAP-21, the transportation 
legislation, which allows that particulate matter non-
attainment areas may spend up to 25 percent of their CMAQ 
allocation toward retrofitting diesel engines.
    Finally, black carbon reductions from new technologies are 
likely to have a measurable impact in reducing and mitigating 
the impact of a warming planet. These reductions and these new 
engines have had significant benefits, as I have outlined. 
According to some scientists, emission reductions from diesel 
engines in the U.S. may mitigate up to 15 percent of the U.S. 
contribution to a warming planet. Climate scientists estimate 
that clean diesel technologies deployed in California alone may 
mitigate global warming effects by 5 percent to 15 percent.
    The success of these strategies has not gone unnoticed by 
the international community, and in part because of the success 
in reducing black carbon here, the United Nations Environment 
Program, UNEP, is working with partners across the globe to 
urge the adoption of clean diesel fuel and engines.
    So in conclusion, diesel engines play a significant role in 
the U.S. economy and the U.S. is a leader in clean diesel 
technology that improves air quality and reduces greenhouse gas 
emissions, including emissions of particulate matter, of which 
black carbon is a component. Thanks to the investment in 
cleaner fuels, emissions and emissions control technologies, 
diesel emissions have fallen by orders of magnitude to near 
zero levels. While new engines are meeting near zero standards, 
older engines and existing equipment still have distinct 
economic value to tens of thousands of small businesses out 
there. Incentive programs such as DERA and CMAQ go a long way 
toward helping those small businesses do better with their 
emissions.
    Thank you very much for the opportunity to testify today.
    [The prepared statement of Mr. Schaeffer follows:]
    
    
[GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]    
    
    
    Senator Carper. Thank you very much, Mr. Schaeffer.
    Mr. Singletary, welcome aboard. Please proceed.

STATEMENT OF ROBERT SINGLETARY, ATTORNEY, OFFICE OF THE GENERAL 
     COUNSEL, OKLAHOMA DEPARTMENT OF ENVIRONMENTAL QUALITY

    Mr. Singletary. Good morning, Chairman Carper, Ranking 
Member Sessions and members of the Subcommittee. Thank you for 
the opportunity to testify at today's hearing.
    My name is Robert Singletary, and I serve as the 
supervising attorney for the Air Quality and Land Protection 
Divisions at the Oklahoma Department of Environmental Quality. 
I have been asked to provide testimony today regarding the 
implementation of the Diesel Emissions Reduction Act in 
Oklahoma, and the resulting reductions in diesel emissions and 
the associated impacts on air quality.
    The State of Oklahoma has participated in the DERA program 
since 2008. During this period, Oklahoma has administered funds 
allocated by the U.S. Environmental Protection Agency in an 
amount of just over $4.3 million. The majority of those funds, 
approximately $3.1 million, came via the American Recovery and 
Reinvestment Act of 2009. Aside from the funding provided 
through ARRA, the annual funding allocated to Oklahoma by EPA 
for ERA projects during this period was between approximately 
$190,000 and $295,000 annually until fiscal year 2013. In 
addition, the State of Oklahoma has contributed just over 
$300,000 in State matching funds.
    Since beginning participation in the program in 2008, the 
Oklahoma Department of Environmental Quality has overseen the 
completion of approximately 413 DERA projects, including the 
replacement of 118 older diesel school buses with new vehicles 
meeting more stringent emission limits, the installation of 
diesel particulate filters and related technologies on 18 
school buses, the installation of diesel oxidation catalysts on 
82 school buses, the installation of closed crankcase 
ventilation systems on 125 buses, and the installation of 
auxiliary heaters on 55 buses.
    Diesel engines are designed to have very long operating 
life spans and many of the buses that have been replaced in 
Oklahoma were more than 20 years old. It is not uncommon for 
diesel school buses of that age to have emissions of 
hydrocarbons, carbon monoxide and nitrogen oxides that are 65 
to 95 percent greater than those of the new school buses. 
Similarly, and of particular relevance to the black carbon 
discussion, it is not uncommon for fine particulate matter, 
PM<INF>2.5</INF> emissions, from older diesel buses to be 90 
percent greater than the newer certified models.
    Installation of certain retrofit technologies also greatly 
reduces the percentages of PM<INF>2.5</INF> emissions. For 
example, the installation of diesel particulate filters reduces 
PM<INF>2.5</INF> emissions by 50 to 60 percent and the 
installation of diesel oxidation catalysts reduces such 
emissions by nearly 30 percent.
    In total, the projects administered by the Oklahoma 
Department of Environmental Quality have resulted in emissions 
reductions over the life of the replaced or retrofitted 
equipment by approximately 21 tons of PM<INF>2.5</INF>, 37 tons 
of hydrocarbons, 172 tons of carbon monoxide, and 353 tons of 
NO<INF>x</INF>.
    In addition to the emission reductions that are directly 
attributable to the replaced or retrofitted equipment, the DERA 
program has also provided the State with an opportunity to 
educate school districts regarding the economic and health 
benefits that are associated with implementing anti-idling 
strategies. These strategies can significantly reduce the 
overall emissions from these diesel engines, whether or not 
they are replaced or retrofitted. And they also significantly 
reduce the exposure to impacted children to concentrated levels 
of these pollutants. Moreover, any school or school district 
participating in the program was required to implement an anti-
idling policy across its entire fleet.
    Based on the reductions in the proposed funding allocations 
for the upcoming year, the Oklahoma Department of Environmental 
Quality chose not to participate in the program next year. 
However, the agency continues to support the voluntary nature 
of the DERA program and the opportunity for States to implement 
it at the State level. Assuming a funding level that is 
sufficient to warrant the minimal administrative burden that is 
associated with implementing the program, the resulting 
emissions, especially in light of the sensitive population 
impacted, justify the agency's continued participation in the 
program.
    Again, thank you, Chairman Carper, members of the 
Committee, for the opportunity to testify today.
    
    
    [The prepared testimony of Mr. Singletary follows:]


[GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]

 
    Senator Carper. Thanks, Mr. Singletary. When we mentioned 
the idling strategy, I was in a school not long ago where the 
school buses had gathered to take the students home. And the 
point you made is a really good one, all these kids have to 
walk by their buses, through their buses in order to get on the 
buses. That is a very good point. If they are idling, if they 
are not idling, if they stop the idling, you save fuel and 
probably save some lives as well. That is a great point. Thank 
you.
    Mr. Harris.

      STATEMENT OF ROBERT C. HARRIS, JR., VICE PRESIDENT, 
   ENVIRONMENTAL AND PROGRAM MANAGEMENT, ALABAMA STATE PORT 
                           AUTHORITY

    Mr. Harris. Thank you, Chairman Carper, Ranking Member 
Sessions and distinguished members of the Subcommittee. Thank 
you for the opportunity to discuss black carbon emissions and 
the Alabama State Port Authority's positive experiences to 
reduce diesel emissions and leverage Federal financial support 
under the Diesel Emissions Reduction Act.
    My name is Bob Harris and I oversee environmental and 
Federal programs for the Port Authority. The Authority 
represents the public cargo terminals at the Port of Mobile, 
which is currently the 13th largest of the Nation's 150 
commercial deepwater seaports. The Alabama State Port 
Authority's economic value in Alabama alone tops $18.7 billion 
and directly and indirectly generates over 127,000 jobs.
    The Alabama State Port Authority is one of three commercial 
deepwater U.S. seaport authorities that owns and operates a 
freight railroad. The Authority's terminal railway consists of 
75 miles of track and operates 10 diesel-powered locomotives. 
The terminal railway is the largest public seaport owned and 
operated terminal railroad in the Nation, handling over 133,000 
cars annually.
    In and around port communities, the seaport industry is 
increasingly factoring air quality when addressing port 
operations. Cargo handling equipment, trucks, locomotives, 
tugboats, dredges, ferries and ships mostly rely on diesel 
engines for power. Older diesel engines can emit elevated 
levels of particulate matter and nitrogen oxides which can 
contribute to air quality concerns.
    In 2008, the Alabama State Port Authority began pursuing 
the goal of voluntarily reducing emissions at the Port's 
terminals by seeking funding assistance made available through 
the Environmental Protection Agency's National Clean Diesel 
Funding Assistance Program to purchase a new class of fuel 
efficient, low emission locomotive engines. The Port's 
objective was to begin converting its 10 locomotives to cleaner 
burning, more efficient engines that met Tier 2 emissions 
standards.
    In 2011, EPA awarded the Port a $953,921 grant to improve 
air quality through assistance funding from the Diesel 
Emissions Reduction Act of 2010. The Port Authority's $1.58 
million project would repower a 1980 diesel electric switching 
locomotive with state-of-the-art GenSet technology with a goal 
to significantly reduce existing locomotive emissions by up to 
95 percent and reduce fuel consumption by 50 percent.
    GenSet technology replaces a single large diesel engine in 
the locomotive with two smaller engines that can be shut down 
or operated depending on power demand requirements. Without 
compromising traction and power, this approach conserves fuel 
and reduces noise during operations by using only one engine in 
low power applications and powering up both engines in higher 
power demand applications. The Port Authority took delivery of 
the first retrofitted engine in February 2013.
    In follow up to our positive experience with DERA, the Port 
Authority looked to build on the program's success. The Port 
Authority sought out and has received a $1.35 million grant 
under DERA 2012 to repower two more terminal railways circa 
1980 diesel electric switching locomotives. It is estimated 
that this $2.02 million repower project will reduce particulate 
matter emissions by 60 tons over the lifetime of these two 
engines. Additionally, these two engine repowers will generate 
an estimated 43,000 gallons of diesel fuel savings annually.
    The Alabama State Port Authority applauds the Subcommittee 
for its past leadership in support of the DERA grant program 
and for its ongoing leadership in addressing black carbon 
impacts. The Port Authority thanks the members for the 
opportunity to speak on our experiences with this critical 
program, and I am happy to address any questions.


    [The prepared statement of Mr. Harris follows:]

[GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]
    
    Senator Carper. Mr. Harris, I am glad you came today. I am 
glad you all came today, but I said to Senator Sessions, what 
compelling testimony. I would just say to my colleagues, think 
about this. For every $1 that we appropriate for DERA, it 
leverages $3 additional. And for every $1 that we appropriate 
through DERA, we get about $13 worth of health savings.
    So if you think about the $1 from DERA that leverages the 
other $3, if you multiple three times $13, you actually get for 
every $1 in DERA spending, we are getting about $39 worth, if 
my math is right, about $39 worth of health benefits. Pretty 
compelling.
    And the point that you made, Mr. Harris, about the fuel 
savings as well on the locomotives that you have in, is it 
Mobile?
    Mr. Harris. Yes.
    Senator Carper. That is very compelling. We have to figure 
out a way, these numbers are just too compelling, we have to 
figure out a way to get some additional moneys moved, Federal 
moneys moved through the appropriation process into this 
program.
    Before we get started with questions, I just want to first 
ask unanimous consent to submit for the record a letter from 
the President and CEO of the American Association of Port 
Authorities, Kurt Nagle, I expect you know him. Kurt Nagle, in 
support of fully funding DERA at the authorized levels.
    [The referenced letter follows:]
    
    
[GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]
    
    Senator Carper. I want to go back to, if I could, Mr. 
Johnson, to something that you said. I was telling Jeff here 
that my primary vehicle for moving around the State of Delaware 
is a 2001 Chrysler Town and Country minivan. We bought it the 
year that I stepped down as Governor of Delaware in 2001. And 
it now has 353,000 miles on it. It has the original engine, 
original transmission, original owner. And my wife says to me, 
when are you ever going to buy a new vehicle? And I say, why? 
In fact, it is in the shop today, but just for an oil change. 
We started changing oil last year.
    [Laughter.]
    Senator Carper. Before that, all we did is wash it every 2 
weeks.
    But someday, I will have to get a new vehicle, and Jeff was 
telling me about some of the vehicles they make down in Alabama 
that are highly energy efficient diesel-powered vehicles, clean 
emissions, low emissions, which is very compelling. Made here 
with American technology.
    I just want to go back to something you said, Mr. Johnson. 
Sometimes when we are driving down the highway in Delaware in 
my like-new Town and Country minivan, we will have on the air 
conditioning. Days like this we don't, and we will just 
circulate the outside air through the vehicle.
    You made a statement included in your comments, you talked 
about the level of emissions that we breathe in when we do 
that. Would you just revisit that for us again, please? I just 
want to hear this again.
    Mr. Johnson. Thank you for the chance to clarify the 
statements and elaborate a little bit more. Coming out of the 
tailpipe of an unfiltered diesel engine, the particle 
concentrations are 10 million to 100 million per milliliter. By 
the time it reaches the car, the car behind the truck or even 
the car a couple cars behind the truck, it is diluted a 
thousand times. So if you recall the arithmetic here, you go 
from 10 to the eighth down to 10 to the fifth, but then every 
breath that you take is about 100 milliliters. So you add 
another 10 to the 2 and you end up with 1 million to 10 million 
particles per breath.
    Now, in your cabin, I used to work in cabin air filtration 
earlier in my career, and I was astounded that the air in your 
car changes, even if the fan is not on, about three times a 
minute. That was back then. I don't know what they are today. 
But you are essentially bringing in high volumes of fresh air 
into your vehicle. And this air has very high contaminant 
levels, when you are on the freeway.
    Another comment that I would like to make is that freeway 
exposure is not limited to vehicles. In California, a study in 
Toronto, 40 percent to 50 percent of the people in those cities 
live within 500 yards of a highway or a major thoroughfare. 
These are referred to as tunnels of pollution, and this affects 
the children's lung capacity, asthma, and other things that are 
lifetime illnesses, lifetime, it is carried over for a 
lifetime. So when you are talking 40 to 50 percent of the 
population living within these freeways, vehicular emission 
control takes a whole new meaning. That is in L.A. today, with 
the tightest regulations in the country, the world.
    Senator Carper. Thank you. Thank you for that 
clarification.
    One question, if I could, for both Mr. Schneider and Mr. 
Singletary, then I will kick it over to Senator Sessions. As 
you know, I have another day job, you may know I have another 
day job as the Chair of the Homeland Security and Government 
Affairs Committee, with my ranking member on that Committee, 
Tom Coburn. We try very hard to make sure we are getting better 
results for less money, not duplicating efforts in the Federal 
Government. Can you talk just a little bit about why, despite 
the overall success of the Clean Air Act in improving our air 
quality, we need programs like DERA and Clean Construction to 
reduce black carbon pollution? Mr. Schneider.
    Mr. Schneider. Sure, Senator, that is a great question. I 
think the answer primarily is that the Clean Air Act is a 
regulatory program. It tells you what you can't do or how much 
pollution you can't emit. It does not provide necessarily 
incentives or subsidies or whatever for pollution reduction. So 
it is a regulatory-based program.
    And so for these diesel particulate filters that we are 
talking about, they are very effective at taking pollution out 
of the air, but they don't necessarily confer a benefit on the 
companies that have to install them. In fact, a lot of the 
companies that have bought what we call the existing diesel 
fleet, when they purchased them, they met the clean air 
standards that EPA had set. Now what we are seeing is they need 
to do better, it would be great if they could retrofit. Because 
those companies don't experience a direct benefit to that, the 
benefit is really a public good. So it makes sense for the 
Government to have a role in providing some incentives to help 
them do that.
    Now, that might not be true for a repower like the GenSet, 
and the situation that was described in Mobile. That would be a 
situation where you get the double benefit. But the filter 
doesn't really get you a fuel economy benefit. So that is a big 
part of it.
    States do have the ability, particularly as Mr. Schaeffer 
mentioned, that we may be seeing tighter PM and ozone standards 
in the future. States do have the ability to require these 
retrofits, as California has tried to do as part of their State 
implementation plans. So it is possible to order these 
retrofits. But in many areas, you are probably not going to see 
that. If we want to experience the benefits of these retrofits, 
it is a great step to have the Federal Government step in with 
DERA and Clean Construction and lend a helping hand.
    Senator Carper. Good. Thanks.
    Mr. Singletary, same question, please.
    Mr. Singletary. Senator, in regard to the DERA program, I 
think the best benefit of the program is that it is assisting 
these school districts, some of them who are struggling 
financially to replace these aging fleets. It would be very 
difficult on a mandatory basis to make them do that. So the 
voluntary nature of the program, helping them to address those, 
especially considering the sensitive population that is most 
impacted. In Oklahoma, we are currently in attainment for all 
the NAAQs, so we don't have the ability to go back, especially 
in regard to mobile sources, but even stationary sources, and 
achieve tighter reductions from existing sources. So a 
voluntary program like that that provides an incentive for the 
school districts to come forward and try and replace those 
buses prior to the life span of the bus, or retrofit the buses 
to lower those emissions is very helpful.
    Senator Carper. Thanks so much.
    Senator Sessions.
    Senator Sessions. Thank you. I want to ask a number of 
questions, and maybe briefly go through and give us some 
perspective on where we are. Mr. Harris, thank you for your 
leadership at the State docks, Port Authority. Do you believe 
the diesel engines are environmentally beneficial, a modern, 
efficient diesel engine?
    Mr. Harris. Yes, Senator, very much. There have been 
tremendous advances in diesel engine technology over the last 
several years. A modern diesel engine is very much 
environmentally friendly technology.
    Senator Sessions. Share with us how much it takes per 
engine to retrofit it in the way you suggested with two 
different engines that combine, if needed, for extra power and 
get a 50 percent fuel reduction. What does it cost, so people 
know, to actually accomplish that per engine?
    Mr. Harris. It costs approximately $1.6 million per 
locomotive to do that rebuild with the GenSet technology that 
we have adopted.
    Senator Sessions. So the Federal grant money was very 
helpful in helping you make that decision?
    Mr. Harris. Yes. The Federal grant money allowed us to go 
that extra step to put in place a more emission-efficient 
technology and a fuel-efficient technology.
    Senator Sessions. Does a complete new, actually two 
complete new engines replacing one, Mr. Johnson, you have a 
filter that can go on an existing engine, as I understand it. 
Is that correct? How much does it cost to install your product?
    Mr. Johnson. It depends, of course, on the vehicle. Looking 
at a heavy duty truck, it is on the order of $5,000 to $7,000 
per truck. Now, keep in mind that these trucks are still worth 
$50,000 to $70,00, even $100,000. So it is a relatively small 
investment on a truck that is worth an order of magnitude more 
and will be in service for 5 or 10 years.
    Senator Sessions. Mr. Singletary, thinking about thousands 
of school buses there, I calculated one time, I spent a full 
year of my life on a school bus, an hour just about in the 
morning and an hour home in the afternoon, for many years. What 
about new engines? Where are we heading with new engines? Is 
there a movement toward the more modern diesel engines or are 
school systems still using a gasoline engine? What do you think 
is best environmentally?
    Mr. Singletary. Senator, I believe the majority of the 
fleet in Oklahoma are diesel buses. Obviously the newer diesel 
buses, you have emissions in regard to PM that are 93 percent 
less than some of the older buses that are in place. Like I 
said in my direct testimony, some of the buses that we have 
replaced through our program were over 20 years old, some 
approaching 30 years. So there are some significant reductions 
between the standards when they were manufactured and the newer 
2011 and newer models.
    Senator Sessions. Mr. Schneider, do you have any 
observation about the choice that a school system has in buying 
a new bus? Should they consider a modern diesel or would, from 
an environmental perspective and cost perspective, be smarter 
to buy gasoline?
    Mr. Schneider. Typically what we find is that the school 
bus fleets are running on diesel. And the choice that they 
typically face is whether and how fast to replace those older 
diesel buses with new ones versus taking the money maybe 
through a DERA program or whatever and install a diesel 
particulate filter on them. Both are very effective. But we 
have found that you can retrofit and clean up an entire fleet 
through retrofits probably more efficiently and more cost 
effectively than replacing it. But some of the school districts 
have the capital budget to be able to replace their fleets.
    Senator Sessions. But just as vehicles turn over, and some 
have to be replaced, do you have an opinion which would be 
preferable?
    Mr. Schneider. I think the industry standard is diesel.
    Senator Sessions. When you look at the overall cost and the 
advantages, I guess I am wrestling with the question, should we 
do more to incentivize the new vehicles also, not just 
retrofitting old ones. But diesels last a long time, some are 
30 years old, still running, is that correct?
    I see Mr. Schneider and Mr. Johnson are nodding. Do you 
have some old ones?
    Mr. Harris. Yes, Senator, the locomotives that we have 
discussed were purchased in 1980. So we are talking 40-plus 
years.
    Senator Sessions. So, 1980 was 40 years ago?
    [Laughter.]
    Senator Sessions. I am kind of kidding.
    Well, we are making progress with the new ones. One of my 
staff people in Alabama commuted about 50 miles a day. And she 
bought a Volkswagen Beetle diesel and was getting 52 miles to 
the gallon. Now, that is significant, that really started my 
inquiry into the advantages, one way or the other, as to diesel 
engines as compared to gasoline engines. And that was better 
than hybrid engine cars yet. So it was a matter of real 
importance.
    We have also a representative here from NAVASTAR who builds 
fabulous diesel engines in Alabama. We are proud of them.
    Thank you, Mr. Chairman, for the hearing. These are 
important issues. What I like about this whole process, to me, 
it is a win-win in the sense that we are getting better gas 
mileage, bringing down the costs to the purchaser of the 
vehicle, getting better environmental impact and having the 
savings more than pay for the cost of the engine. So I think 
that is a good step for us to take, and thank you for your 
leadership.
    Senator Carper. It doesn't get much better than that. It is 
a great combination. Win-win-win.
    Senator Sessions. Mr. Chairman, I did note for the record 
here and offer for the record a summary of the GAO report on 
the various programs. This one is entitled Fragmented Federal 
Programs That Reduce Mobile Source Emissions, which is what we 
are talking about, Could Be Improved. That is the title of it. 
So one of the things we ought to look at is maybe exactly where 
we are targeting our resources, maybe we don't need quite so 
many programs, we could actually get more money that could go 
out to transform our fleets.
    Senator Carper. Thank you. And with that, that will be part 
of the record. Thanks so much.

    [The referenced information follows:]

[GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]


    Senator Carper. Senator Boozman, welcome aboard. Thanks so 
much for being here.
    Senator Boozman. Thank you, and I have enjoyed working with 
you on this issue very, very much. I agree with Senator 
Sessions, I think the GAO says that we are spending over a 
billion dollars in ancillary stuff and needing to consolidate, 
fund the programs that work. Seriously, I asked Philip about 
the funding that had gone forward in the House. I think it is 
about $19 million, which is interesting. That is three times 
what the Administration has asked for, and this very difficult 
time I think really illustrates how important a lot of people 
feel like this program is.
    I think we all agree that this black soot is extremely 
toxic, and again, as the Chairman has pointed out and Senator 
Sessions, the bang for the buck with three to one leveraging, 
and then also the health care costs. It really does seem to be 
something that is a little bit of a no-brainer.
    Mr. Singletary, you mentioned that Oklahoma is not 
participating. Is that because under the current funding of the 
$6 million or whatever projected that it is not worth the 
administrative cost to the State to go forward?
    Mr. Singletary. Yes, Senator, that is correct. I believe 
the proposed allocation for States last year was just over 
$71,000. The agency made the determination that the commitment 
of agency resources to implement that, that we could achieve 
better impact on air quality in Oklahoma by focusing those 
efforts elsewhere.
    Senator Boozman. So we are in a situation now where we have 
cut the funding and proposed funding and things such that we 
are, it is basically administrative costs, and we are not going 
to get a whole lot done. Can you all comment about that?
    Mr. Schaeffer. Thank you for the question, Senator. I think 
you are exactly right. We have seen from the beginning of the 
DERA program adequate funding levels really drive results. And 
we can focus on larger numbers of fleets and vehicles and 
equipment and machines and that was done in the early parts of 
the program.
    Now we are getting into more specific and difficult areas 
and ones that are quite significant. As Mr. Harris outlined, 
the cost to upgrade existing locomotive technology is quite 
significant and far beyond that of a single school bus. So as 
we get into diminishing funds, we can also run into a situation 
of diminishing returns, as we are unable to fund larger 
projects and we have situations that were just described. So I 
think as the agency has focused increasingly, I believe, this 
year on port activities, and those are some of the larger 
ticket items. So that will create some imbalances probably in 
how funds are allocated throughout the country. Just by the 
nature of the situation that we find ourselves in, not because 
of agency choice.
    So I think a more fully funded program of course would 
benefit more parties, more entities, both large and small.
    Senator Boozman. What is the average age of the truck 
fleet? And you might comment on the diesel fleet. Then also you 
have the heavy equipment, the earth movers, things like that.
    Mr. Schaeffer. Sure, thank you. I happen to have some 
specific data from Arkansas. Senator, in your State, about 24.7 
percent of all commercial vehicles registered in the State 
today, and that is Class 3 through Class 8, the smallest 
commercial trucks up to the largest tractor trailers, 24.7 
percent of those are 2007 and newer. So they include the latest 
emissions control technology.
    From a national perspective, about 11 percent of the trucks 
out there today are 2010 and newer. Those also incorporate very 
low emissions, NO<INF>x</INF> reduction technology. So the 
fleet is improving in its average age. But we did go through a 
period of time during the 2008 through 2011 period, 
particularly, when the purchases of new technology were delayed 
because of the recession and the uncertainty about the economy.
    Senator Boozman. So part of that too was the uncertainty 
about the equipment also, wasn't it, in the sense that new 
technology, nobody really understood? I guess that was really 
pushed forward in a hurry. And there was concern about adequate 
testing.
    Mr. Schaeffer. I think it is fair to say there was some 
uncertainty about the new technology and whether or not it 
would perform as suggested. Within the trucking industry, 
adoption of new technology, of any kind of new technology there 
is uncertainty. So that is correct.
    I wanted to answer the off-road question a little bit. The 
average age of the off-road fleet is a really difficult 
question and one that we don't have the benefit of vehicle 
registration data. So what we find, though, in our sort of 
analysis of the situation, the best we can, find that those 
machine and pieces of equipment that are highly used, like 
backhoes and wheel loaders and dozers, are replaced quite 
often, because they are the primary tools of construction. 
There are some very old cranes and other machines that perform 
unique activities. But they only perform them in a very unique 
and limited period of time. So it is not like they are being 
used every day. They may be 20 years old, but they may only be 
being used a few hours each year on a very specific task. We 
are not able to really provide the average ages of all those 
machines and equipment. There are just too many and to many 
diverse types.
    Senator Boozman. If they are like my little tractor on my 
little farm, a lot of it is old.
    Tell me, Mr. Singletary, you mentioned the voluntary nature 
of this. Can you elaborate on that?
    Mr. Singletary. I think that is a big plus to the program, 
is the voluntary nature. Like I said, the buses are the 
vehicles that we are primarily targeting in Oklahoma. Our 
school buses, school districts, especially during tough 
economic times, replacing a school bus is $80,000, $85,000. So 
any amount that can be offset through a grant program to 
replace a 30-year-old bus is something that is very helpful to 
get those old buses off the road.
    Senator Boozman. Very good.
    Thank you, Mr. Ranking Member, and again, I appreciate you 
and Senator Carper working together. I think this is great. 
There is lots of stuff going on up here, but this is a great 
example of us really trying to come together and get some 
common ground and provide adequate funding for what appears to 
be from the studies and listing of people like yourselves that 
are out there every day fighting the battle of trying to 
control these things, a very worthwhile program. So hopefully 
we can work together to get the adequate funding that we need.
    Yes, sir.
    Mr. Johnson. I do have one comment to make. This is a very 
valuable program, obviously, for all the stakeholders. But it 
is over-subscribed. Six entities apply and only one gets it. So 
as long as there are volunteers that wish to use this 
technology, it is a great investment for everybody.
    Senator Boozman. Well, if it goes down to $6 million, it is 
going to be way over-subscribed.
    Senator Sessions. Senator Boozman, I don't know if you want 
one of those $5,000 filters on your tractor or not.
    [Laughter.]
    Senator Sessions. It does raise the question of what we can 
afford, how many hours a vehicle is being used, how much we can 
afford to put in the older vehicles. We are not able to just 
completely eliminate that fleet. But looking at the numbers, 
the improvement we are seeing is rather remarkable. The trends 
are really, really good.
    I noticed, and I mentioned the school bus manufacturing in 
Oklahoma, but those engines are made by NAVASTAR in Huntsville, 
Alabama, those diesel engines. Each one of them that goes out 
is very much an improvement on the environment.
    Mr. Johnson, did you want to comment?
    Mr. Johnson. Yes. The $5,000 to $7,000 that I quoted, much 
of it is engineering. It is labor to design the equipment, 
install it, monitor it and so on. The actual hardware is much 
less than that.
    Senator Sessions. Are there things that we might could use 
that would be less efficient but more affordable for a small 
farm tractor or something of that kind? Have any technology 
improvements been made there?
    Mr. Johnson. That raises an interesting question. Companies 
like mine invest in markets that look promising. So the 
interesting thing about DERA is that it was an incubator for a 
wide range of retrofit technologies.
    So I am quite confident that if the market is there, the 
technology will be developed to address the market need, 
whether that market need is for a $1,000 system or a $150,000 
system. So this is an incubation program in a lot of ways.
    Senator Sessions. Good. Thank you. Thank you, Mr. Chairman.
    Senator Carper. Thank you. It has been really 
extraordinary. We have about 5 minutes to go, so we are going 
to ask maybe one more question, then we will have some 
questions for the record. I want to thank Senator Sessions, I 
really want to thank our staffs for the work that went into 
this.
    Again, for Mr. Johnson and Mr. Schaeffer if I could, this 
will be my last question here today. Both of you mentioned in 
your testimony the cutting edge diesel technology that American 
companies have developed and are manufacturing here in the U.S. 
Mr. Johnson, I believe the comment you made was that you are 
building a new clean diesel manufacturing facility as we speak 
in New York, is that right?
    All right. Can you talk about why this country, how did we 
end up as a leader, if you will, in clean diesel technology and 
what it has meant for economic development and trade deficits 
in this country? Are there any programs or anything that the 
Federal Government can do to keep us on the cutting edge?
    Mr. Johnson. Yes, that is an excellent question that I look 
at all the time. First of all, regarding the first part of your 
question on why the United States is leading this technology. I 
saw a presentation given just last week by Cummins. They 
showed, and others have shown the same thing, where the 
technology follows the regulation. Whenever there is a 
regulatory shift, there is a technology shift, for whatever 
reason. It is a very clear relationship.
    We have the tightest regulations in the world on vehicles 
here in the United States. That is why we are a leader in 
developing these technologies.
    With regard to exports, this plant that we are building is 
being designed to meet the worldwide requirements for our 
products. And the intent is to put a lot of the product into 
export from this plant to meet the needs in China and India.
    The reason that we built it here, quite simply, is because 
of the tax incentives that we received at the State level and 
hopefully from the Federal level as well. They were 
instrumental in helping us make that decision.
    Senator Carper. Thank you.
    Mr. Schaeffer, please.
    Mr. Schaeffer. Thank you, Senator Carper.
    The recent economic study that the Diesel Technology Forum 
commissioned, which was completed by Aspen Environmental Group 
and M.Cubed, found that diesel engines, fuel and equipment are 
very high value as exports and account for about 4.4 percent of 
all exports. That is about a $46.2 billion annual figure.
    In the course of doing that, we learned that about one in 
four of all diesel engines produced in the U.S. is destined for 
a market overseas. So diesels are a high value export. The 
technology is really in the forefront, not only of reducing 
emissions but also the kinds of things that are highly valued; 
fuel efficiency, reliability, durability, and performance that 
diesel offers. The U.S. manufacturers and the members of our 
organization have really been the forefront of making the 
billions of dollars of investments that have been necessary to 
produce these products that people want to buy around the 
world.
    So in terms of things that can be done, certainly 
incentives to encourage more research and development, the 
Department of Energy's Super Truck program is doing a great job 
in facilitating new fuel-efficient truck technology for the 
next century. And incentives to help fleets create and invest 
in new technology were mentioned earlier. I think those are 
important considerations. We are seeing those play out right 
now in the agricultural sector, where many farmers have taken 
advantage of some tax advantages that have allowed them to 
invest in a lot of new equipment the last few years.
    So that is better fuel-efficient technology for them, and 
fewer emissions for our environment. So those are very 
important programs.
    Senator Carper. Excellent. That is all we have time for 
today, time is running out on the clock. Again, thank you so 
much for being here, thank you for the great work that you are 
doing in this arena, whether you happen to be doing the R&D, 
manufacturing the technology, implementing the technology, in 
ways that are just very, very encouraging.
    I usually take the train down in the morning and go back at 
night. A lot of times I walk down the platform to get on the 
train in the morning when I catch it, and I stop and talk to 
people, mostly from Delaware but some from Pennsylvania or New 
Jersey. And they say, how are you doing, how are you doing, I 
have a friend when you ask him, how are you doing, he says, 
compared to what?
    Well, I almost always say, I am happy. People say, how can 
you be happy? You are going to work, and don't you work in the 
Senate? That must be a terrible place to work these days. If 
they could be with us today, they would see why I am happy. I 
am happy and I am encouraged. In adversity does lie 
opportunity, thank you, Mr. Einstein, for that quote. But there 
is plenty of adversity, reliance on foreign oil, fossil fuels, 
creating a lot of pollution, climate change, health care 
problems for young people and old, all kinds of adversity. But 
there is real opportunity here, there is real opportunity in a 
cost effective way to address those elements of adversity and 
actually do them a lot better, and at the same time, create 
jobs and create economic activity here in our country.
    Thank you for remind us that it is possible to do it and do 
well at the same time. This is a great example. And a great 
example for us to focus on that 80-20 rule here in Washington, 
DC. This is certainly that 80 percent that we can agree on.
    And we just need to bear down and do more. Thank you so 
much.
    We have 2 weeks for Senators to submit their questions and 
materials for the record. We just ask that you respond promptly 
to those questions.
    Again, thank you for a great job. Terrific panel. We have 
four or five of us here today, I wish everybody on the 
Committee could have actually been a part of this hearing. They 
would have been as happy as I am and as encouraged as I am.
    Thank you so much. With that, we are adjourned.
    [Whereupon, at 12:03 p.m., the Subcommittee was adjourned.]

                                 <all>
</pre></body></html>
